No. 19-793

 

 

IN THE
Supreme Court of the United States

INSTITUTE FOR FREE SPEECH,

Petitioner,
v.
XAVIER BECERRA,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

BRIEF IN OPPOSITION

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
6,187 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on May 1, 2020.

Li

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.

 
